           U.S. Department of Energy
           Office of Inspector General
           Office of Audit Services




  Audit Report
The Department's Energy, Science,
and Environment Sites' Implementation
of the Design Basis Threat




  DOE/IG-0749                       December 2006
                               Department of Energy
                                   Washington, DC 20585


                                    December 14, 2006

MEMORANDUM FOR .13HEfiECREJARY

                          4-
                         Crregor   . Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "'I'he Department's Energy,
                         Science, and Environment Sites' Implenneritation of the Design
                         Basis Threat"

BACKGROUND

'Phe Department of Energy uses the "Design Basis Threat" (DBT) process to guide and
manage its safeguards and security program throughout the complex. The DBT identifies
the most credible threats posed by adversaries to highly sensitive and classified
Departmental qssets and operations. In essence, the DBT sets the standards that site
safeguards and security programs are required to meet in order to protect Departmental
operations and assets, including special nuclear material (SNM) and classified
information. Post-September 1 1, 2001, the Department initiated a comprehensive effort
to update its DBT to address the new challenges related to those events.

The revised DR'I' incorporates a two-phased approach with enhanced security
requirements that were to be in place, site-by-site, by the end of Fiscal Year (FY) 2006:
and, even more stringent requirements to be met by the end of FY 2008. Departmental
guidance for implementing the DBT stressed the need for cost-effective and permanent
measures, including the increased use of technology to meet security requirements.

Sites engaged in the energy, science. and erlvironnlental (ESE) components of the
Department's mission are required to comply with the DBT. This is especially important
for those ESE sites that have substantial quantities of the most sensitive SNM-referred
to as Category I SNM. In October 2005, we found that another component of the
Department, the National Nuclear Security Administration, had experienced delays in
implementing security upgrades. Because of the special importance of safeguarding
Category I SNM, this audit was focused on determining whether those ESE sites with
Category I SNM will meet the DBT requirements within the established target dates.

RESULTS OF AUDIT

We found that the ESE sites made significant progress in implementing measures
necessary to meet the first phase of the DBT requirements that were due by the end of
September 2006. However, the majority of ESE sites with Category I SNM were
unlikely to meet the more stringent DBT provisions required by the end of FY 2008.
Specifically:

       One site's strategy for meeting DBT requirements relies on SNM consolidation.
       We found, however, that it is highly unlikely that this site will be able to ship all
       of its Category I SNM to the recipient site by the target date.

       Another site had not yet completed its plan for meeting the DBT requirements. In
       addition, a critical non-security project that was integral to the site's success in
       this area had been delayed for several years; and, it will not be available to carry
       out the site's planned approach to meeting the 2008 target date.

       A third site had experienced delays in implementing planned measures due to a
       lack of fi~ndingto support DBT implementation plans. In addition, the site had
       experienced delays in deploying technologies not previously used at the
       Departn~ent.

Our audit did show that one site was on track to meet the FY 2008 target date for
implementing the fill1 requirements of the DBT. Notably, this was being accomplished
through the extensive and successful use of proven technologies.

Various Vactors have limited the progress of ESE sites in meeting the FY 2008 target date
requiren~ents. These included (1) delays in resolving legal and public policy issues
regarding inter-site consolidation of SNM, (2) an interpretation of the DBT policy that
was inconsistent with its intent, and (3) a failure to update security plans to reflect
changing conditions and the availability of more effective implementation strategies. For
example:

       The Department established a Nuclear Materials Disposition and Consolidation
       Coordinating Committee to facilitate SNM consolidation. Yet, despite the efforts
       of this Committee, the Department had made no formal decision regarding
       material disposition and consolidation.

       Some sites and program offices had interpreted policy guidance to mean that if
       they eventually plan to remove Category I SNM from the site, they do not have to
       meet the DBT requirements that are to be implemented by the end of
       FY 2008 -- even if the material is likely to remain at the site well beyond the
       target date. This was inconsistent with the intent of the Department's policy,
       according to responsible Headquarters officials.

       Finally, ESE sites that had experienced delays had not: (i) updated their
       implementation plans to reflect those delays; and, (ii) identified alternative
       strategies for meeting the established implementation target date.

Clearly some of the Category I SNM located at ESE sites had been declared excess to
national security needs. This did not, however, obviate the need to sustain security
efforts to safeguard the material from a national security perspective and to protect the
health and safety of employees and the public. Until the requirements of the DBT policy
are met at all its sites, the Department lacks assurance that high-risk materials and
operations are adequately protected. Furthermore, delays in the material consolidation
process and in planned upgrades may result in additional costs needed to implement
interim security measures to compensate for these delays. This includes, speciHcally. the
siguificantly incrcased cost of augmenting protective forces, matters that have been the
sub.jcct of prior Office 01' Inspector General reports.

I o facilitate the Department's impletnetltation of its DBT process, the attached report
includcs spccific rccomniendations to improve the integration and cost-effectiveness of
the UBrI' activities, particularly at ESE sites.

Due to security vulnerability considerations. the report does not make a direct connection
between the specific security findings and the related ESE sites.

MANAGEMENT REACTION

Management officials from the Offices of the Under Secretary of Energy and the Under
Secretary for Science concurred with the audit recommendations. Management stated
that Energy and Science sites have made significant progress toward meeting the DB'I'
reqllirements that were to be completed by the end of September 2006 and are taking
additional steps to meet the requirements of the next phase of the DBT process, that is, by
the end of FY 2008. Management comments are included in their entirety in Appendix 3.
In addition, we received technical comments from the Office of Health, Safety and
Security and the Office oENuclear Energy. These comments have been incorporated into
the report where appropriate.

Attachment

cc: Deputy Secrctary
    Under Secretary for Energy
    Under Secretary for Science
    Administrator. National Nuclear Security Administration
    Chief of Staff
REPORT ON THE DEPARTMENT'S ENERGY, SCIENCE, AND
ENVIRONMENT SITES' IMPLEMENTATION OF THE DESIGN BASIS
THREAT



TABLE OF
CONTENTS


           Design Basis Threat


           Details of Finding ........................................................................................ 1

           Rccornmendations and Comments ..............................................................
                                                                                                     7


           Appendices


           I . Objective, Scope, and Methodology ......................................................8

           3. Prior Reports ........................................................................................
                                                                                                                  10

           3. Management Comments ......................................................................11
Desiqn Basis Threat

Background              The Department of Energy (Department) develops and periodically
                        updates the Design Basis Threat (DBT) policy, which reflects the
                        most credible threats posed by adversary types to Departmental
                        assets and operations. The resulting DBT document provides
                        senior decision makers and site managers with the policy
                        information needed to plan permanent safeguards and security
                        upgrades; identify needed resources; and implement improved
                        programs to successfully protect sensitive Department assets
                        against defined threats, including terrorism.

                        In the aftermath of the events of September 1 1, 2001, the
                        Department updated its DBT policy in May 2003 to reflect the new
                        threat environment. The Department clarified the 2003 policy with
                        additional requirements in an April 2004 Annex to the 2003 DBT.
                        As part of this process, the Department established the end of
                        Fiscal Year (FY) 2006 as the goal for fully implementing
                        permanent security changes to site protection programs. The
                        Department again revised its DBT policy in 2004 and 2005, with
                        implementation of the 2005 DBT to be in effect by the end of FY
                        2008. Implementation of the 2005 DBT builds upon earlier
                        mandated security program changes.

Implementation of the   The Department's Energy, Science, and Environment (ESE) sites
Design Basis Threat     with the most sensitive special nuclear materials (SNM), called
                        Category I, are working to implement the DBT policy. ESE sites
                        had made significant progress toward implementing the 2003 DBT.
                        However, the sites have made limited progress in meeting the
                        requirements of the 2005 DBT, which is to be implemented by the
                        end of FY 2008.

                        At the time of our review, half of the sites met the full
                        requirements of the 2003 DBT, including the 2004 Annex.
                        Another site met modified requirements, as approved in an
                        exception to the DBT policy granted by the Deputy Secretary. The
                        final site has not con~pletedall planned physical upgrades but has
                        implemented compensatory measures to meet the 2003 DBT
                        requirements.

                        Nonetheless, ESE sites have made limited progress toward meeting
                        the 2005 DBT. Although the sites have expended considerable
                        effort, in collaboration with the Office of Health, Safety and
                        Security (HSS), to identify off-the-shelf technologies to improve
                        the effectiveness of their security programs, the majority of the
                        sites are not likely to meet the full requirements of the policy by
                        the end of FY 2008.



Page 1                                                                  Details of Finding
                           Nuclear Materials Consolidation

         One site's strategy for meeting the DBT requirements relies on
         SNM consolidation. In April 2006, the Department granted the site
         a three-year exception to the DBT policy requirements, based on
         the assumption that Category I SNM would be moved to another
         Departmental site by the end of FY 2009. However, it is unlikely
         that this goal can be met for several reasons. First, no site has the
         necessary approval to accept the material. Legal and public policy
         issues related to the shipping of SNM to another Departmental site
         cannot be resolved at the site level and have prevented the site
         from beginning the shipment of its SNM. Second, the Office of
         Secure Transportation has estimated that shipment of this material
         could take three to six years to complete, once the site is able to
         begin shipments, thereby extending the realistic completion of
         consolidation well beyond the FY 2009 goal.

                Implementation of Security and Non-Security Projects

         Another site has experienced delays in meeting the FY 2005 DBT
         requirements. First, this site's strategy to eliminate the Category I
         SNM from the site depends on implementation of a non-security
         project. However, several factors make it unlikely that the site can
         fully implement the current DBT by the end of FY 2008. First, the
         non-security project has not proceeded as originally planned, has
         been delayed for at least three years, and does not include
         contingency to recover scope and schedule. As a result, the site
         will have to protect Category I SNM until at least FY 2014.
         Second, the site has not yet completed its plan for meeting the
         current DBT. The analysis to determine the upgrades needed to
         meet the 2005 DBT requirements is not scheduled to be completed
         until early calendar year 2007, which is too late to support a budget
         request for FY 2008. Third, a detection technology the site
         planned to use has not fully met expectations, requiring additional
         analysis of alternatives to meet the requirements. The site is
         engaged in a collaborative effort with HSS to identify technologies
         that will meet the site's needs in a cost-effective manner.

         Site officials stated that they should no-tbe required to meet the full
         DBT policy requirements since, according to their interpretation of
         Departmental guidance, they believe the site is non-enduring as a
         result of their plan to eventually eliminate the Category I SNM.
         Consequently, this site has planned to request an exception from
         some requirements in the 2005 DBT policy.


Page 2                                                     Details of Finding
                          Implementing Planned Measures

         An additional site experienced delays in implementing planned
         measures. Specifically,

                The site is working to deploy several technologies, such as
                unmanned aerial vehicles and intrusion detection systems,
                which have not yet met site expectations. The site is
                working with HSS and technology manufacturers to address
                the issues. However, until the operational benefits of the
                technologies are known, the site cannot determine the
                number of protective force personnel it will need to meet
                the DBT requirements.

                As of August 2006, the site did not expect to receive
                requested funding in FY 2007 for DBT implementation.
                Therefore, the site reported that it will require two years
                after funding is received to implement its plan, making the
                earliest feasible implementation date FY 2009.

                HSS's review of this site's implementation plan questioned
                the categorization of SNM in several facilities. Program
                officials report that this issue is the subject of ongoing
                discussions between the site, program office, and HSS.
                Depending on how this issue is resolved, the site's DBT
                implementation plans may require significant changes to
                provide a higher protection level for the material if it is
                re-categorized.

                          Use of Technologies and Analysis

         The last site is on track to implement the DBT requirements by the
         end of FY 2008. This site has relied heavily on technologies
         proven to be effective at other Departmental sites. In addition, the
         site has a strong analytical capability which has supported effective
         planning for implementing the DBT in a timely manner.
         Moreover, this site has successfully implemented SNM
         consolidation within the site, allowing it to meet the new
         requirements without a significant expansion of its protective
         forces.




Page 3                                                    Details of Finding
Completion of Planned   Delays in resolving barriers to inter-site material consolidation, site
lrr~plementation        and program offices' interpretations of DBT policy and guidance,
Measures by the End     and a lack of plan updates are preventing sites from meeting
of FY 2008              DBT requirements. These factors are likely to result in sites asking
                        for repeated exceptions to DBT requirements.

                                                Consolidation Efforts

                        Although some sites liave successfully consolidated SNM within
                        their individual sites, inter-site SNM consolidation efforts liave
                        been delayed due to the Department's slow progress with preparing
                        a strategic plan for, among other things, resolving the legal and
                        public policy issues related to material consolidation. As of
                        September 2006, the Department had not made a formal decision
                        regarding material disposition and consolidation. The lack of
                        progress in developing a consolidation strategy has adversely
                        affected sites' plans for meeting DBT requirements. For example,
                        between December 2003 and April 2006, one site was directed
                        multiple times to change the entire basis for its implementation of
                        the DBT. Its original plan to meet the DBT requirements was
                        predicated on shipping the Category I SNM off-site. However, the
                        site was subsequently directed to plan to retain the material through
                        2035 and, more recently, was directed to again plan on shipping the
                        SNM off-site.

                        The Department established the Nuclear Materials Disposition and
                        Consolidation Coordinating Committee (Committee) to coordinate
                        nuclear materials disposition and consolidation. However, the
                        Committee has not been able to make substantial progress in
                        preparing a plan, in part, because of frequent changes in leadership
                        of the Committee. Additionally, the Department has not developed
                        a report on disposition alternatives for Congress that was due over
                        four years ago, before the establishment of the Committee. This
                        report must be completed before the Department can ship
                        additional materials to a primary candidate site for consolidation.
                        Until progress is made by the Department in resolving how it plans
                        to consolidate SNM, site plans that rely on shipping material off-
                        site to meet the DBT requirements cannot be effective. Therefore,
                        these sites need to develop and implement alternative strategies
                        and plans for meeting the DBT requirements by the established
                        target date.




Page 4                                                                    Details of Finding
                           interpretation of DBT Guidance

         DBT policy requires all sites to meet the full requirements by the
         established target dates for each policy revision, i.e., the end of
         FYs 2006 and 2008. However, sites that plan to remove or
         eliminate the SNM after the target dates may choose to use
         temporary measures, rather than permanent facility upgrades, so
         long as those measures fully comply with the policy and are more
         cost-effective than permanent upgrades. Sites may also request
         approval to delay implenientation of measures but must get
         approval for such delays from the appropriate senior levels of the
         Department, if the delays result in increased security risk at the
         site.

         However, we found that sites and program offices have interpreted
         the guidance to mean that if they plan to eventually remove or
         eliminate SNM, even if well beyond the FY 2008 target date, they
         do not have to meet the requirements. As a result, the sites are
         likely to require an indefinite number of approved deviations from
         the requirements until the material can be eliminated from the sites.
         This was inconsistent with the intent of the Department's policy,
         according to responsible Headquarters officials. For example, one
         site's officials stated that, since it is a non-enduring site, they
         should not need to meet the requirements of the 2005 DBT policy
         and plan to request a deviation from the policy. Nonetheless, the
         site will have Category 1 SNM until 2014 or beyond. Another site
         planned to use a less demanding protection strategy because they
         also plan to eventually eliminate the material froni the site.
         However, the site is likely to have Category I SNM for at least one
         to four years after the implementation target date. This site is
         currently operating under an approved deviation from the DBT
         requirements which is effective through April 2009. The site will
         likely require additional deviations since it will have material on-
         site beyond 2009.

         We recognize that it may not be cost-effective for sites to
         implement permanent upgrades to facilities containing Category I
         SNM that will eventually be removed or eliminated from the site.
         However, the two sites discussed above have either not
         implemented temporary measures or have not determined what, if
         any, additional measures will be implemented until the Category I
         SNM is eliminated from the sites, as provided for in the DBT
         policy.




Page 5                                                    Details of Finding
                                                 Plan Updates

                     Some sites have experienced delays in planning and implementing
                     measures to meet the DBT policy but have not updated their plans
                     to reflect the delays and identify alternative strategies for meeting
                     the established target date for implementation. For example, one
                     site has not updated its plan to show changes in upgrade schedules
                     or measures as a result of delays in a non-security project to
                     eliminate Category I SNM. Additionally, an independent oversight
                     inspection of this site reported in April 2006 that the site lacked the
                     necessary expertise to provide sound analysis of options on which
                     it could base a cost-effective plan to meet the DBT requirements.

                     Finally, sites have not updated their plans to identify alternative or
                     compensatory measures, such as increased protective forces, to
                     address delays in deploying technologies. While technologies that
                     have not previously been deployed at Departmental sites can
                     provide significant advantages, they require a substantial
                     investment of time to modify them for site-specific conditions,
                     ensure that deployment meets safety standards, and provide
                     protective force officers with the necessary training and procedures
                     to effectively use the technologies. As a result, it has been difficult
                     for sites to predict how long it will take to fully deploy new
                     technologies to meet the DBT requirements.

                     Unless sites update their plans to identify alternatives for
                     recovering from delays, they are unlikely to meet the established
                     target date for implementing the DBT policy.

DBT Implementation   The DBT establishes protection standards that security programs
Costs and Concerns   at Department sites must meet to successfully protect Departmental
                     operations and assets, including Category I SNM, from adversaries
                     such as terrorists. Timely implementation of these protection
                     standards by the established target dates is of key importance to
                     ensure that national security assets and operations are sufficiently
                     protected. At those ESE sites that do not meet the full
                     requirements of the DBT policy, the Department's assets could be
                     at risk. Further delays in consolidating materials and in
                     implementing permanent upgrades and technologies may also
                     increase the overall cost of meeting the DBT requirements by
                     requiring the use of costly interim measures, such as an increased
                     protective force presence.




Page 6                                                                 Details of Finding
RECOMMENDATIONS    To aid ESE sites in meeting DBT requirements, we recon~mend
                   that the Under Secretary of Energy, as a Co-Chair of the
                   Committee's Executive Steering Committee, ensure that the
                   Nuclear Materials Disposition and Consolidation Coordinating
                   Committee has leadership continuity in the future and expedites the
                   completion of its work to finalize a Departmental approach to
                   materials consolidation.

                   We also recommend that the Under Secretaries of Energy and
                   Science ensure:

                       1. Consistent and accurate interpretation of DBT guidance;

                      2. Tinlely resolution of material categorization issues between
                         HSS, program offices, and sites; and,

                      3. Timely updating of site plans, as appropriate, to account for
                         delays in meeting DBT requirements.

                   Finally, we recommend that the Under Secretary for Science ensure
                   the availability of adequate analytical resources to plan for cost-
                   effective approaches to meeting the DBT requirements.


MANAGEMENT         Management officials from the Offices of the Under Secretary of
COMMENTS           Energy and the Under Secretary for Science concurred with the
                   audit recommendations. Management stated that Energy and
                   Science sites have made significant progress toward meeting the
                   DBT requirements that were to be completed by the end of
                   September 2006 and are taking additional steps to meet the
                   requirements of the 2005 DBT by the end of FY 2008. In addition,
                   we received technical comments from the Office of Health, Safety
                   and Security and the Office of Nuclear Energy.

AUDITOR COMMENTS   Management's comments are responsive to our recommendations.
                   We made changes to the report, as appropriate, to address technical
                   comments from the Office of Health, Safety and Security and the
                   Office of Nuclear Energy.




Page 7                                         Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of our audit was to determine whether the
              Department's Energy, Science, and Environment (ESE) sites will
              meet the Design Basis Threat (DBT) requirements within the
              established target dates.


SCOPE         The audit was performed between September 2005 and August
              2006. We conducted fieldwork at various field locations. In
              addition, audit work was performed at the Department of Energy
              (Department) Headquarters with the Office of the Under Secretary
              of Energy; the Under Secretary for Science; the Office of Health,
              Safety and Security; the Office of Nuclear Energy; and, the Office
              of Environmental Management.


METHODOLOGY   To accomplish the audit objective, we:

                         Reviewed applicable Public Laws, Departmental orders,
                         other Departmental guidance, related correspondence,
                         and contracts;

                         Analyzed prior Office of Inspector General and
                         Government Accountability Office reports;

                         Reviewed compliance with the Government
                         Performance and Results Act of 1993;

                         Analyzed key documents related to site plans to
                         implement the 2003 and 2004 DBT policies, including
                         quarterly reports;

                         Reviewed Office of Health, Safety and Security
                         activities related to the implementation of the DBT,
                         including Office of Security Evaluations inspections;
                         and.

                         Interviewed key headquarters, field, and contractor
                         personnel.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective of the
              audit. Accordingly, we assessed the significant internal controls
              and performance measures established under the Government


Page 8                                    Objective, Scope, and Methodology
Appendix I(continued)

                   Perfonnance and Results Act of 1993. We found that the
                   Department does not have sufficient internal controls to ensure that
                   program offices follow Departmental security orders and guidance.
                   Because our review was limited, it would not necessarily have
                   disclosed all internal control deficiencies that may have existed at
                   the time of our audit. We determined that controls over computer-
                   processed data were not integral to meeting the objectives of this
                   audit. We discussed the findings with the Director of Security in
                   the Office of the Under Secretary for Energy and senior security
                   officials of the Offices of Environmental Management, Science,
                   and Nuclear Energy in September 2006. Management waived the
                   exit conference.




Page 9                                        Objective, Scope, and Methodology
Appendix 2

                                      PRIOR REPORTS


Office of Inspector General Reports

   The Nutionul Nztcleur Security Adnlir~istrution'sImplementution of the 2003 Design Busis
   Threut (DOEIIG-0705, October 2004). The National Nuclear Security Administration
   (NNSA) has experienced delays in implementing changes to site protection programs
   required to meet 2003 Design Basis Threat (DBT) policy. Delays in implementing the
   planned upgrades to meet the 2003 DBT safeguards and security performance requirements
   occurred primarily because NNSA did not have sufficient time to fully integrate security
   planning and budgeting and execute a coordinated effort to identify and evaluate cost-
   effective, permanent upgrades, including new technologies.

   Munugemerlt of the Department's Protective Forces (DOEIIG-0602, June 2003). Although
   improvements have been made in the management of the protective force program, the
   Department of Energy (Department) still faces a number of challenges. Among the
   challenges were morale and potential retention problems due to mandatory overtime and
   declining training opportunities, and significant increases in unscheduled overtime costs.

Government Accountability Office (GAO) Reports

   Nuclectr Security: Several Issues Could Impede the Ability of DOE5 OfJice of Energy,
   Science. urz~lEnvironment to Meet the May 2003 Design Busis Threut (GAO-04-894T,
   June 2004). Full implementation of site DBT plans will require the successful resolution of
   complex organizational arrangements between various program and security offices. Several
   sites must consolidate special nuclear material (SNM) within or between sites, requiring
   actions by multiple program offices. In some cases, one program office owns material that is
   stored at a site reporting to a different program office. If the SNM is not moved and
   consolidation is not achieved, the sites may not be able to meet the DBT requirements by the
   target date of the end of Fiscal Year 2006.




Page 10                                                                         Prior Reports
Appendix 3



                                           DEPARTMENTOFENERGY
                                             Washington, DC 20585


                                                                                   OFFICE OF THE SECRETARY

                                              November 1 3.3006




          MI<MC)IIANI)IJM 1-011Crl~:OlICil:W. COI,T,ARD
                               ASSIS'I'ANT INSPECTOR GENERAI-
                               FOR I'EIIFOIIMANCI.: AIJI)ITS



                                    OFFICE OF 1'11E UNL1EII SEC'lIt.. I    WYOts I:Nl..K(jY
          St ~l3Sl.:C"l':           liesponsc to the Ilraft Report on ."l'he 1)epartment's 1:nergy
                                    Science and Environment Sites' Implementation ol'thc Ilcsign
                                    B,d s.'~. Threal"
                                              s

           Ihank y o u For the opportunity to revie\\ and commcnt on your draft report regarding the
          stalus ol'design basis threat (DBT) implementation at Department of 1:ncrgy (1)OII) sitcs
          i~ndcrthe organizational responsibility of the Undcr Sccrctary of Encrgy.

          :Is notcd in V L I I . rcport. Ilncrgy and Science sites have indeed made significant progress
          in implementing measures necessary to meet design basis threat req~tirementswhich ivcre
          issi~edin May 2003 and were reqllired to be completed by September 2006. All sitcs
          i~ndcrthe pl~rvicwol'the Undcr Secretary o f Energy are currently in conipliancc ivit11
          1101' policy. 1,ikcu.ise. all our sitcs are taking appropriate steps to meet rcquiremcnts set
          1i)rtIi in the rc\:ised design basis threat policy issued in November 2005. As notcd in your
          ~.cvic\r,these revised rcqitircments are not scheduled to be achieved until the end of
          Fiscal Year 2008.

          I:inall\.. \vc concur wit11 the rccon~n~cndations
                                                         in this report.

          cc: Glenn I'odonsky. I ISS
              Miruricc L)i~ugI~crty,
                                   EM
              Carl Klec. N E
              Incs 7'riay. I'M
              I)c~inisMiotla. N ti
              George Malosh. SC
              Mark I'hornock. SC'




Page 11                                                                     Management Comments
Appendix 3 (continued)              --




                                          Department of Energy
                                               Office of Science
                                            Germantown, M D 20871

                                              Kovember 14,2006



           MEMORANDUM FOR. GEORGE W. COLLARD
                           ASSISTAVT INSPECTOR GENERAL



                                                                             /&
                           FOR PERFORMANCE AUDITS

           FROM:                    SIARK THORNOCK, TE.LL4 LElWER
                                    SECLRITY MANAGEMENT ST.L\t F
                                    OFFICE OF LABORATORY POLICY & INFRASTRUCTLX

           SUBJECT:                 Response to the Draft Report on "The Department's Energy
                                    Science and Environment Sitest Implementation of the Design
                                    Basis Threat"

           Thank you for the opportunity to review and comment on your draft report regarding the
           status of Design Basis Threat (DBT) implementation ar Department of Energy (DOE) sites
           under the organizational responsibility of the Cnder Secretary for Science.

           We agree with your report that observed Energy and Science sites have indeed made
           significant progress in implementing measures necessary to meet Design Basis Threat
           requirements which were issued in October 2003 and were required to be complzted b!
           September 2006. The applicable site under the p w i e w of the Under Secretary for Science
           is currently in compliance ~ i t DOE
                                            h    policy. As noted in your review, the revised
           requirements are not scheduled to be achieved until the end of Fiscal Year 2008. This
           ofice looks forward to continuing to work towards an increasingly secure, safe, and
           efficient environment to further science while safeguarding required material and
           information.

           In general, we concur wiith the recommendations in this report and will coordinate within
           the Department as appropriatz.


           Cc: Linda Crowder IG
               George Malosh, SC
               Van Nguyen, SC
               Janet Venneri SC
               Jim Lint, SC




Page 12                                                                     Management Comments
                                                                    IG Report No. DOEJIG-0749

                                CUSTOMER RESPONSE FORM


The Office of'Inspector General has a continuing interest in improving the i~sefulnessof its
products. We wish to make our reports as responsive as possible to o~u- customers' req~~irements,
and, therefore, ask that yo11consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:


I. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report '?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date   -



Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail i t to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
